No. 19-411
IN THE

Supreme Court of the United States
RODNEY REED,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari to the
Texas Court of Criminal Appeals
WORD COUNT CERTIFICATE
I hereby certify, pursuant to Rule 33.1(h), that Respondent’s Brief
in Opposition contains 8,959 words, excluding parts of the brief exempted
by Rule 33.1(d). I am a member of the Bar of this Court.
MATTHEW OTTOWAY
Assistant Attorney General
Assistant District Attorney
Bastrop County, Texas
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
matthew.ottoway@oag.texas.gov
Counsel for Respondent

